Office of Inspector General
U.S. Department of Labor
Office of Audit




               Postaward Survey of
                 the Washington
                     Alliance
                 Welfare-to-Work
                Competitive Grant




                           Report Number: 03-00-004-03-386
                           Date Issued: March 27, 2000
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant




                                              TABLE OF CONTENTS



ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . 3


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS

1.    The Washington Alliance’s Organizational Structure and Program Operations
      Do Not Agree with the Grant Agreement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

2.    The Washington Alliance’s Use of Vendor Agreements Instead of Subrecipient
      Agreements Circumvents WtW Administrative Cost Limitations . . . . . . . . . . . . . . . . . . . . . . . . 10

      Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3.    Vendor Agreements Were Awarded Without Competition and
      the Reasonableness of their Costs is Questionable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
      Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
      OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


U.S. Department of Labor - Office of Inspector General                                                                              Page i
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant



                                             TABLE OF CONTENTS


4.   Arrangements for Renting Space from the District of Columbia’s
     Department of Employment Services Were Improper . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

5.   The Reasonableness of the Washington Alliance’s Staff Salaries is Questionable . . . . . . . . . . . . 18

     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

6.   Enrollment Levels are Low Compared to Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

7.   The Washington Alliance Does Not Have a Fidelity Bond
     for its WtW Competitive Grant . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     OIG Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


APPENDIX

     Agency’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24




U.S. Department of Labor - Office of Inspector General                                                                           Page ii
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant




                                      ACRONYMS


        CFR                 Code of Federal Regulations

        DCDHS               District of Columbia’s Department of Human Services

        DCDOES              District of Columbia’s Department of Employment Services

        DOL                 U.S. Department of Labor

        ETA                 Employment and Training Administration

        FARs                Federal Acquisition Regulations

        GOTR                Grant Officer’s Technical Representative

        LIFECARE            LIFECARE Management Partners

        MOU                 Memorandum of Understanding

        OIG                 Office of Inspector General

        TANF                Temporary Assistance for Needy Families

        WtW                 Welfare-to-Work




U.S. Department of Labor - Office of Inspector General                                 Page iii
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


                                   EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL) Employment and Training Administration (ETA) awarded the
Washington Alliance a $5 million Welfare-to-Work (WtW) competitive grant on January 4, 1999. The
grant application described the Washington Alliance as a collaborative effort of nine companies with
two general partners and seven subcontractors.

The Office of Inspector General (OIG) performed a postaward survey of the Washington Alliance’s
WtW competitive grant program. The purpose of our postaward survey was to make an assessment of
the Washington Alliance’s capability to administer the grant in accordance with the applicable
regulations so that, if possible, it could implement timely corrective action to improve program
performance and internal controls.

We concluded that the Washington Alliance does not have either the administrative or program
capability to operate this WtW grant in accordance with the grant agreement and the WtW regulations.
Our major concern is that the Washington Alliance’s current organizational structure and program
operations are significantly different than what it represented in its grant agreement. The original grant
application, which formed the basis for the competitive award, proposed a collaborative effort of nine
organizations, two serving as general partners and seven as subcontractors. Currently, only four of the
original nine organizations are involved in any formal way in carrying out the Washington Alliance’s
WtW grant, with an additional entity reduced to a partner with no role or authority. As a result, the
proposed structure that constituted the basis of the competitive grant award has been reduced by more
than one-half. We believe this dramatic departure from the proposed structure essentially invalidates
the competitive award, since there is no way of knowing whether the applicant would have competed
successfully had the current structure and program design been the one proposed in the competition.

Other problems found with the Washington Alliance’s WtW program were:

     •    The use of vendor agreements circumvented WtW’s administrative cost limitations.

     •    Vendor agreements were awarded without free and open competition.

     •    Vendor agreement costs appear unreasonable and were not evaluated using a price or cost
          analysis.

     •    Rental of space from the District of Columbia’s Department of Employment Services
          (DCDOES) was improperly arranged.

     •    Staff salaries appear unreasonable and were not based on an established compensation plan.


U.S. Department of Labor - Office of Inspector General                                             Page 1
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant



    •    Enrollment levels are low compared to goals.

    •    No fidelity bond was purchased for the WtW competitive grant to protect the Government’s
         interest.

We discussed the results of our survey with the ETA Grant Officer and the Director of the Office of
WtW, who directed the Grant Officer’s Technical Representative (GOTR) to perform an in-depth
monitoring review. The GOTR’s review not only confirmed the problems we identified, but raised
additional problems requiring corrective action.

It is our opinion that these problems, taken as a whole, clearly demonstrate that the Washington
Alliance is not operating its WtW program according to either the approved grant agreement or the
applicable WtW regulations. To safeguard the Government’s interest, we recommend that ETA
immediately start actions to terminate the Washington Alliance’s WtW competitive grant.

In his written response to our draft report, the Assistant Secretary for Employment and Training stated
that while ETA shares OIG’s concerns regarding the viability of the Washington Alliance’s WtW
competitive grant, they have not yet concluded that the Washington Alliance does not have either the
administrative or program capability to operate the grant in accordance with the grant agreement and
WtW regulations. ETA has requested the Washington Alliance submit a detailed corrective action plan
which will serve as the basis for ETA’s decision whether or not to terminate the grant as recommended
by OIG.

We continue to believe that immediate action should be taken to terminate the Washington Alliance
WtW competitive grant in order to protect the government’s interest. The current structure, operation,
and program design are materially noncompliant with the conditions of the grant award. Moreover,
because the award was made on a competitive basis, we believe it is inherently unfair to permit this
grantee to continue where other, perhaps more worthy, applicants were denied grants in the
competitive process. The issue of whether the Washington Alliance entity is what was represented in its
competitive grant proposal was first raised in April 1999. Approximately 12 months – and over
$790,000 in grant expenditures – later, we are unconvinced that a functional alliance exists.
Moreover, we have identified deficiencies in the grantee’s program and administrative operations that,
in our opinion, the Washington Alliance has shown neither the capability nor willingness to correct.
Therefore, we stand by our recommendation that ETA terminate the grant.




U.S. Department of Labor - Office of Inspector General                                          Page 2
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant



         OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

The purpose of our survey was to evaluate the Washington Alliances’s financial management
and program systems and make an assessment of its capability to administer the grant. Our work was
performed using a postaward survey guide which was designed by OIG to make an early assessment of
the Washington Alliance’s program operations so that, if possible, it could implement timely corrective
action to improve program performance and internal controls.

We initially scheduled our survey to begin on April 12, 1999. However, we deferred the scheduled
start because of issues raised by the GOTR concerning the Washington Alliance’s membership and
administration, specifically, the lack of formal documents of partnership or incorporation. ETA’s
involvement resulted in the Washington Alliance changing its organizational structure from a general
partnership to a limited partnership, with one member filing a Certificate of Limited Partnership in the
District of Columbia on May 10, 1999. Accordingly, we rescheduled our survey to begin October 12,
1999. Field work ended October 22, 1999.

During our survey, we assessed the financial and program systems currently operational, or being
planned, for administering this WtW grant. To accomplish this, we evaluated the Washington Alliance’s
grant agreement, operating procedures and policies, and applicable criteria. We also interviewed key
staff persons involved in developing and administering Washington Alliances’s WtW program.

At the completion of our survey, we met with the ETA Grant Officer and the Director of the Office of
Welfare-to-Work to discuss our concerns regarding the Washington Alliance’s administration of its
WtW grant. The ETA Grant Officer directed the GOTR to perform a review of the Washington
Alliance’s current operations. We agreed to wait until the GOTR completed his review before issuing
our report. The GOTR completed his review and reported the results to the ETA Grant Officer. On
December 28,1999, the ETA Grant Officer sent a letter to the Washington Alliance which summarized
the GOTR’s report and requested that a corrective action plan be submitted within 30 days.
Washington Alliance’s response to the letter was received on January 28, 2000. The ETA Grant
Officer found the Washington Alliance’s corrective action plan to be incomplete. The ETA Grant
Officer sent the Washington Alliance a letter on March 15, 2000, requesting it to submit a more
detailed corrective action plan within 10 working days.




U.S. Department of Labor - Office of Inspector General                                            Page 3
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant




The following criteria were used:

     •    WtW provisions promulgated through Title 20 Code of Federal Regulations (CFR) Part 645,
          dated November 18, 1997;

     •    administrative rules contained in Title 29 CFR Part 95, dated August 29, 1997; and

     •    cost principles detailed in the Federal Acquisition Regulations (FARs), Title 48 CFR Part 31,
          dated June 17, 1999.

Our survey was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.




U.S. Department of Labor - Office of Inspector General                                          Page 4
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


                                         BACKGROUND

The WtW program was authorized by the Balanced Budget Act of 1997 to move hard-to-employ
welfare recipients into unsubsidized employment and economic self-sufficiency.
Hard-to-employ welfare recipients are defined by the WtW regulations as individuals who are: enrolled
in the Temporary Assistance for Needy Families (TANF) program; are receiving long-term welfare
assistance and meet a barriers-employment test or have the characteristics of long-term welfare
dependents; or are noncustodial parents of TANF recipients. The Balanced Budget Act of 1997
authorized $3 billion for WtW grants in fiscal years 1998 and 1999. Of this amount, 25 percent has
been awarded to selected Private Industry Councils, political subdivisions, or private entities through a
competitive grant process. The WtW competitive grants are designed to develop and implement
creative and innovative approaches to enhance a community’s ability to achieve WtW goals. On April
15, 1998, ETA announced a second round of WtW competitive grants. ETA’s announcement
described the conditions under which applications would be received and how they would determine
which applications to fund.

The Washington Alliance was awarded a $5 million WtW competitive grant on
January 4, 1999. The grant application described the Washington Alliance as a collaborative effort of
the following nine companies: ORB Technologies; Anacostia Economic Development Corporation;
LIFECARE Management Partners (LIFECARE); Capital Commitment, Inc. (Capital Commitment);
Howard University; Refrigeration Supply Company; DCDOES; American Computer Utopia; and
Crawford and Company. The grant application also listed ORB Technologies and LIFECARE as the
two general partners and the other organizations as subcontractors.

In the spring of 1999, the GOTR informed the Office of WtW and the ETA Grant Officer
that the Washington Alliance had no formal documents of partnership or incorporation, although the
grant application was made in the name of an alliance which described itself as
a partnership.

LIFECARE subsequently filed as the sole general partner in a formal limited partnership
and assumed total responsibility on behalf of the Washington Alliance for the WtW grant.
A grant modification dated June 24, 1999, accepted the organizational change from a general
partnership to a limited partnership, with LIFECARE as the managing general partner and ORB
Technologies as a limited partner. The modification also stated that the Washington Alliance would
function as a consortium of organizations. The modification included
a concept-of-operations plan and changed the grant period and grant budget.

As of December 31, 1999, the Washington Alliance had enrolled 98 participants and expended
$790,998 in WtW grant funds.


U.S. Department of Labor - Office of Inspector General                                           Page 5
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


                         FINDINGS AND RECOMMENDATIONS

 1.       The Washington Alliance’s Organizational Structure and Program Operations
          Do Not Agree with the Grant Agreement


The Washington Alliance’s current organizational structure and program operations are significantly
different than what it represented in its grant agreement. The original grant application, which formed
the basis for the competitive award, proposed a collaborative effort of nine organizations, two serving
as general partners and seven as subcontractors. Currently, only four of the original nine organizations
are involved in any formal way in carrying out the Washington Alliance’s WtW grant, with an additional
entity reduced to a partner with no role or authority. As a result, the proposed structure that
constituted the basis of the competitive grant award has been reduced by more than one-half. We
believe this dramatic departure from the proposed structure essentially invalidates the competitive
award, since there is no way of knowing whether the applicant would have competed successfully had
the current structure and program design been the one proposed in the competition.

The following are details of our survey of the Washington Alliance’s organizational structure and
program operations.

Organizational Structure

The Washington Alliance has never been a collaborative effort of nine companies as described in the
grant agreement. The Washington Alliance changed its organizational structure after the grant award
which resulted in vesting control to one individual. Moreover, relationships have been established with
only four of the nine companies cited in the grant agreement. Specifically, we found:

      •     The Washington Alliance lacked formal partnership agreements when the grant was initially
            awarded. In its grant application, the Washington Alliance presented itself as a collaborative
            effort of nine companies, of which two were general partners and the remaining seven were
            supposed to be subcontractors. However, after the grant was awarded, the GOTR found
            there were no formal documents of partnership or incorporation. Additionally, there were no
            written agreements among the parties setting forth their various roles and responsibilities. As
            a result of the GOTR’s concerns, the Washington Alliance changed its organizational
            structure from a general partnership to a limited partnership. The change designated
            LIFECARE as the sole general partner and the only organization authorized to execute
            subcontracts and commit WtW funds. ORB Technologies became a limited partner with no
            authority to administer the WtW grant.



U.S. Department of Labor - Office of Inspector General                                              Page 6
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


    •    We found no evidence to demonstrate that Washington Alliance is now, or ever was, a
         collaborative effort or consortium of agencies and firms established to operate its WtW
         program. The Washington Alliance has signed written agreements with only four of the nine
         organizations originally included in the collaborative effort described in the grant agreement.
         Vendor agreements have only been executed with Crawford and Company and Howard
         University for case management services, and Capital Commitment for telecommunications
         and life skills training. A subcontract has been executed with LIFECARE for administration
         and management.

    •    In reality, the Washington Alliance is LIFECARE rather than a collaborative effort of nine
         companies. The managing general partner for LIFECARE and the managing general partner
         for the Washington Alliance are the same person and he has total control of the $5 million
         WtW grant. This person executed a contract agreement between the two organizations
         authorizing LIFECARE to administer and manage the WtW grant. In this contract
         agreement, the LIFECARE managing general partner still implied that the Washington
         Alliance was a consortium of agencies and firms established to operate the WtW program.

Program Operations

The design and structure of the Washington Alliance’s current program operations are significantly
different than the program design included in the grant agreement. The grant agreement stated that the
Washington Alliance WtW program is modeled on four successful welfare-to-work job placement and
postemployment training programs and that five of the nine companies included in the Washington
Alliance would provide job placement services. However, we found that the Washington Alliance did
not execute agreements with all of the organizations cited in the grant agreement as providing job
training and placement services, and it changed the approach for job placement.

    •    The Washington Alliance executed an agreement with only one of the four postemployment
         training programs cited in the grant agreement. The grant agreement cites the following
         organizations for the postemployment component of the Washington Alliance’s WtW
         program: Capital Commitment, Refrigeration Supply Company, American Computer Utopia,
         and the Anacostia Economic Development Corporation. The Washington Alliance only has
         an agreement with Capital Commitment to provide classroom training. We found no
         evidence that the Washington Alliance intends to negotiate agreements with any of the other
         postemployment training organizations cited in the grant agreement.


         In fact, the June 24, 1999, grant award modification does not include either the Anacostia
         Economic Development Corporation or American Computer Utopia in the list of classroom


U.S. Department of Labor - Office of Inspector General                                            Page 7
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


          training contractors.

     •    The Washington Alliance has not executed agreements for placement services with any of the
          five organizations cited in the grant agreement. The grant agreement contains an
          organizational chart which shows that five of the nine organizations originally identified as part
          of the collaborative effort will provide job placement services. These organizations are
          LIFECARE, Howard University, DCDOES, Crawford and Company, and the Anacostia
          Economic Development Corporation. The basic administrative structure at LIFECARE leads
          us to conclude that LIFECARE, as the Washington Alliance, intends to make job placements
          itself.

Overall, we concluded that the Washington Alliance organizational structure and program operations do
not reflect what is described in its grant application, which was the basis for being awarded its WtW
grant. The Washington Alliance would need to make significant changes to its administrative and
program operations to adhere to its approved grant agreement. It is our opinion that the changes
cannot be achieved.



 Recommendation


We recommend that the Assistant Secretary for Employment and Training direct the ETA Grant Officer
terminate the Washington Alliance’s WtW grant immediately for failure to adhere to the terms of the
grant, to the merits for which it was awarded, and for the basic program design in the grant proposal
upon which this competitive grant was reviewed and awarded.



 Agency Response


The Assistant Secretary for Employment and Training responded that while ETA shares OIG’s
concerns regarding the viability of Washington Alliance’s WtW competitive grant, they have not yet
concluded that Washington Alliance does not have either the administrative or program capability to
operate the grant in accordance with the grant agreement and WtW regulations. The Assistant
Secretary for Employment and Training explained that ETA sent Washington Alliance a letter on March
15, 2000, informing it that its January 28, 2000, corrective action plan, required as a result of problems
found during the GOTR’s monitoring review, was incomplete. The letter required the Washington
Alliance to submit a more detailed corrective action plan withing 10 working days. The Assistant
Secretary believes this process will provide the information necessary to make the determination of


U.S. Department of Labor - Office of Inspector General                                              Page 8
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


whether OIG’s recommendation to terminate the grant is warranted.



 OIG Conclusion


We continue to believe that immediate action should be taken to terminate the Washington Alliance
WtW competitive grant in order to protect the Government’s interest. We believe the current structure,
operation, and program design are materially noncompliant with the conditions of the grant award.
Moreover, because the award was made on a competitive basis, we believe it is inherently unfair to
permit this grantee to continue where other, perhaps more worthy, applicants were denied grants in the
competitive process. The issue of whether the Washington Alliance entity is what was represented in its
competitive grant proposal was first raised in April 1999. Approximately 12 months – and over
$790,000 in grant expenditures – later, we are unconvinced that a functional alliance exists.
Moreover, we have identified deficiencies in the grantee’s program and administrative operations that,
in our opinion, the Washington Alliance has shown neither the capability nor willingness to correct.
Therefore, we stand by our recommendation that ETA terminate the grant.


 2.     The Washington Alliance’s Use of Vendor Agreements Instead of Subrecipient
        Agreements Circumvents WtW Administrative Cost Limitations


The Washington Alliance’s managing general partner has decided to use vendor agreements rather than
subrecipient agreements to purchase professional case management services and classroom training.
This approach circumvents the requirements set forth in the FARs and the WtW regulations.

We used 29 CFR 99.210 as a guidance in determining the definition and characteristics of subrecipients
and vendors.

      A subrecipient is described as a legal entity to which a subaward is made and which is
      accountable to the recipient for the use of funds provided. A subrecipient exists when the
      organization receiving a Federal award performs the following activities:

              S       determines eligibility for the program
              S       has performance measured against the Federal program objectives
              S       is responsible for programmatic decision making
              S       is responsible for adherence to program regulations
              S       uses Federal funds to carry out a program as opposed to providing goods or


U.S. Department of Labor - Office of Inspector General                                             Page 9
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


                    services for the program

    A vendor is described as a dealer, distributor, merchant, or other seller providing goods or
    services that are required for the conduct of a Federal program. Characteristics of a vendor are:

            S       provides the goods and services within normal business operations
            S       provides similar goods or services to many different purchasers
            S       operates in a competitive environment
            S       provides goods and services that are ancillary to the operation of the Federal
                    program
            S       is not subject to the Federal program regulations

Washington Alliance’s Vendor Agreements

The grant agreement states that its program was modeled on four successful WtW job placement and
postemployment training programs and that five of the nine organizations included in the Washington
Alliance would provide job placement services. Additionally, according to documentation in the June
24, 1999, grant award modification, all subcontractor agreements would be performance-based and
each subcontractor would be subject to termination if placement goals and wage rates after training are
not satisfactory.

Based on the above descriptions, along with the definitions contained in 29 CFR 99.210, a reader of
the grant agreement and modification would conclude that the Washington Alliance intended to use
subrecipients. However, we found the Washington Alliance has structured its program so that none of
its vendors meets the definition of a subrecipient. This approach is inconsistent with the original grant
agreement. Specifically, we found the following.

    •       The Washington Alliance established an admissions committee made up of LIFECARE
            staff to determine final eligibility and admission to the program after vendors performing
            professional case management services have processed applicants for the program.

    •       None of the existing vendor agreements contain either performance goals or performance
            standards.

Vendor Agreements Circumvent WtW Administrative Cost Limitations

The Washington Alliance’s use of vendor agreements allows it to avoid WtW’s administrative cost
limitations. We believe the failure to report administrative expenditures separately is contrary to the
WtW requirements which intend to limit the amount of funds spent on administrative costs.


U.S. Department of Labor - Office of Inspector General                                            Page 10
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


The WtW regulations in 20 CFR 645.235 specifically require that recipient or subrecipient costs for
overall program management, program coordination, and general administrative functions be charged to
the administrative cost category and that the administrative expenditures not exceed 15 percent of the
grant award.

Also, the WtW regulations in 20 CFR 645.230 require commercial organizations awarded WtW grant
funds to determine allowability of costs in accordance with the provisions of
the FARs at 48 CFR Part 31. Specifically, 48 CFR Part 31.201-4 states that a cost is allocable if it is
assignable or chargeable to one or more cost categories on the basis of relative benefits received or
other equitable relationship.

Each of Washington Alliance’s vendor agreements is based upon either a monthly fee or a single unit
cost per participant. A vendor agreement for case management services contains administrative costs
such as profit, overhead, and indirect costs. The vendor agreements for classroom training did not
include project budgets but simply a negotiated fixed fee per participant. The effect of the vendors’
single unit/monthly fee charging of all WtW costs to the program or services category is that the
Washington Alliance will have no basis for determining if it complies with WtW’s administrative cost
limitations. Since no cost analysis is available, there is no basis to determine the costs used to compile
the fixed fee.

If the negotiated agreement meets the definition of a vendor described in 29 CFR 99.210, the
administrative cost limitations of the WtW regulations do not apply. However, if the negotiated
agreement meets the definition of a subrecipient described in 29 CFR 99.210 and the activity is
consistent with the program design included in the approved grant agreement, the administrative cost
limitations cited at 20 CFR 645.235 of the WtW regulations would apply. Therefore, administrative
costs including profit, overhead, and indirect costs would have to be separated out and reported as
administrative costs.



 Recommendation


If our overall recommendation to terminate this grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to require the
Washington Alliance to allocate and report all WtW expenditures, both administrative and program, to
the benefitting cost categories in accordance with the WtW regulations.


 Agency Response


U.S. Department of Labor - Office of Inspector General                                             Page 11
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant



The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.



 OIG Conclusion


This recommendation will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.


 3.       Vendor Agreements Were Awarded Without Competition and
          the Reasonableness of their Costs Is Questionable


Our survey of documentation of the Washington Alliance’s procurement decisions
demonstrates that none of the vendor agreements was the result of open and free competition. We also
concluded that the reasonableness of the vendor agreement costs is questionable.
These problems occurred because the Washington Alliance’s procurement policy does not
meet the requirements set forth in the uniform administrative requirements for Federal grants.

Title 29 CFR Part 95 establishes uniform administrative requirements for Federal grants and
agreements awarded to commercial organizations. The following sections of 29 CFR Part 95 contain
requirements for procurement.

      •       Competition is one of the standards that is to be used by recipients to establish procedures
              for procurement actions. Section 95.43 on competition states, “All procurement
              transactions shall be conducted in a manner to provide, to the maximum extent
              practical, open and free competition.”

      •       Section 95.46 provides the requirements on procurement records and states,
              “Procurement records and files for purchases in excess of the small purchases
              threshold shall include the following at a minimum: (a) basis for contractor selection,
              (b) justification for lack of competition when competitive bids or offers are not
              obtained, and (c) basis for award cost or price.”

      •       Section 95.45 requires that some form of cost or price analysis must be made and
              documented in the procurement file for each procurement action. It defines cost analysis as


U.S. Department of Labor - Office of Inspector General                                            Page 12
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


           “. . . the review and evaluation of each element of cost to determine reasonableness,
           allocability, and allowability.”

Vendor Agreements Awarded Without Competition

None of the vendor agreements executed by the Washington Alliance were awarded in an open and
free competitive manner. The grantee stated that all vendor agreements were negotiated. The only
documentation for selecting the vendors was a one-page internal memorandum with
a list of 10 reasons. There was a one-line explanation for each reason. Each reason used to support
selecting the vendor was checked and a brief handwritten supplemental explanation, without any
supporting documentation, was provided at the bottom of each page. It is our conclusion that this
documentation does not meet the procurement standards to justify awards without competition.

Reasonableness of Vendor Costs is Questionable

Our survey of the Washington Alliance’s vendor agreements concluded that the reasonableness of its
costs is questionable. We found there was no cost or price analysis conducted.

There were no criteria available to measure whether the vendor costs were reasonable because the
agreements were awarded without the benefit of open and free competition, they did not have
performance goals or measurable standards, and there was no cost or price analysis. The fact that
these vendor agreements lack basic information supporting the costs and the costs may include profit,
indirect costs, and administrative overhead, leads us to question their reasonableness. The vendor
agreements/subcontracts in question call for:

   S       life skills training instructor and associated costs for $91,750 per year
   S       two professional case managers for $87,714, including overhead and profit, each per year
   S       basic computer applications training program for 12 weeks at $3,000 per person
   S       basic telecommunications cable wiring and telephone repair system training program for 12
           weeks at $2,500 per person
   S       cost reimbursement contract for $247,434 for 2 years for professional case management
           services
   S       firm fixed fee contract totaling $116,064 for 30 months to provide outcomes’ management
           for quality assurances of case record keeping for the grantee
   S       contract, in an undeterminable amount, with LIFECARE for the administration and
           management of the WtW grant
   S       the aforementioned contract signed by the same individual who is both the managing general
           partner for LIFECARE and the Washington Alliance




U.S. Department of Labor - Office of Inspector General                                         Page 13
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


Washington Alliance Procurement Policy

The Washington Alliance’s procurement policy does not conform with the uniform administrative
requirements. The procurement policy states that, as a commercial organization, LIFECARE, and its
affiliated entities, i.e., the Washington Alliance, are not required to follow specific procurement
methods, but that procurements should be conducted
in a manner designed to provide full and open competition, whenever practicable and possible.

The Washington Alliance, through LIFECARE as the sole general partner, has taken the position that it
can operate under the regulations applicable to commercial organizations and that vendors and
contractors can be selected based upon business decisions. The LIFECARE general managing partner
told us that, while he understands that profit was an unallowable cost at the grantee level under the
WtW competitive grant, the Washington Alliance can operate under the regulations applicable for
commercial organizations, which are the FARs.

The LIFECARE general managing partner’s understanding of regulations applicable to the WtW
competitive grant is incorrect. According to the WtW regulations and ETA guidance provided to
grantees, commercial organizations should follow the FARs for cost principles and 29 CFR Part 95 for
the uniform administrative requirements.



 Recommendations


If our overall recommendation to terminate this grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to require the
Washington Alliance to:

1. Terminate all existing vendor agreements that were not awarded based upon open and free
   competition.

2. Perform and document cost or price analysis for each procurement action.

3. Revise its procurement procedures to require open and free competition for all future procurement
   transactions.


 Agency Response




U.S. Department of Labor - Office of Inspector General                                        Page 14
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.



 OIG Conclusion


The recommendations will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.



 4.   Arrangements for Renting Space from the District of Columbia’s Department of
      Employment Services Were Improper


The Washington Alliance’s arrangement to rent space from the District of Columbia’s Department of
Employment Services (DCDOES) at its central office location does not meet
the procurement standards in the uniform administrative requirements and the cost principles
in the FARs.

According to 29 CFR Part 95.40:

            Sections 95.41 through 95.48 set forth standards for use by recipients in
            establishing procedures for the procurement of supplies and other expendable
            property, equipment, real property, and other services with Federal funds.
            These standards are furnished to ensure that such materials and services are
            obtained in an effective manner and in compliance with the provision of
            applicable Federal statutes and executive orders.

The FARs at 48 CFR Part 31.201 provide the factors in determining allowability of costs. Two of the
factors are reasonableness and allocability. The subpart defines reasonableness as a cost which, in its
nature and amount, does not exceed that which would be incurred by a prudent person in the conduct
of competitive business. The subpart defines allocability as a cost which is allocable to a Government
contract if it is incurred specifically for the contract.

The Washington Alliance’s case management unit is located at DCDOES’ central office building.
However, we found there was no written lease between the Washington Alliance and DCDOES. We
were told that there was a verbal agreement, and at DCDOES’ request, the Washington Alliance


U.S. Department of Labor - Office of Inspector General                                          Page 15
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


purchased office equipment for DCDOES in lieu of paying a monthly rent. DCDOES planned to use
the office equipment for non-WtW activities. The WtW funds involved a total of $13,867. According
to DCDOES’ officials, DOL owns a 66 percent equity in the land and building at this central office
location.

It is our position that entering into a verbal agreement with DCDOES for the use of space does not
meet the procurement standards set forth in the uniform administrative requirements. Since there is no
evidence that either a cost or price analysis was conducted, we could not determine if the costs were
reasonable. And finally, because WtW grant funds were used to purchase furniture for the DCDOES
with no plans to be used for the WtW program, the costs are not allocable to the WtW grant.



 Recommendations


If our overall recommendation to terminate the grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to:

1. disallow $13,867 which represents the cost of the office furniture purchased for DCDOES,

2. require the Washington Alliance to perform a cost or price analysis to determine the proper cost of
   DCDOES space being used by the grantee, and

3. request the ETA regional office provide technical assistance to both the Washington Alliance and
   DCDOES in negotiating an acceptable lease for the use of office space presently occupied by
   WtW staff.



 Agency Response


The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.


 OIG Conclusion


The recommendations will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.


U.S. Department of Labor - Office of Inspector General                                         Page 16
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant



 5.   The Reasonableness of the Washington Alliance’s Staff Salaries is Questionable


The Washington Alliance does not have an established compensation plan upon which to base the
salary levels included in the WtW grant. Therefore, we could not determine if the salary charges to the
WtW grant were reasonable.

The FARs, at 48 CFR 31.205-6 (“Compensation for Personal Services”) states, “compensation must
be based upon and conform to the terms and conditions of the contractor’s established
compensation plan or practice followed so consistently as to imply, in effect, an agreement to
make payment.”

In determining reasonableness, 48 CFR 31.205-6 states, “factors which may be relevant include
general conformity with the compensation practices of other firms of the same size, the
compensation practices of firms in the same industry, the compensation practices of firms the
same geographic area, the compensation practices of firms engaged in predominantly non-
government work, and the cost of comparable services obtainable from outside sources.”

The Washington Alliance’s managing general partner provided us with a one-page explanation and
justification for staff salaries which was based upon his experience. However, this explanation and
justification do not provide either the documentation or the specific examples necessary to support the
salary levels included in the grant budget.

LIFECARE, under the terms of the limited partnership, is totally responsible for the overall
administration of the Washington Alliance WtW grant. The Washington Alliance allowed LIFECARE’s
managing general partner arbitrarily to establish salary levels for his senior managers based upon their
experience and qualifications. The managing general partner’s justification stated that since all of his
senior managers are either retired Federal employees or retired/former executives with private sector
companies, their salary levels are established at $53 per hour. This hourly wage could result in an
annual salary of $110,000 a year. We found that 6 of the 10 staff hired are being paid at this hourly
wage.


 Recommendation


If our overall recommendation to terminate this grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to require the
Washington Alliance to develop a compensation plan that fully demonstrates the reasonableness of the


U.S. Department of Labor - Office of Inspector General                                          Page 17
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


salary levels and adjust the salaries in the grant budget to reflect the compensation plan.



 Agency Response


The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.



 OIG Conclusion


This recommendation will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.


 6. Enrollment Levels are Low Compared to Goals


The number of participants enrolled in the Washington Alliance’s WtW program is significantly low
compared to its goals. The Washington Alliance’s goal was to enroll 515 participants by March 31,
2000, however, as of December 31, 1999, only 98 participants have been enrolled. This can be
attributed, in part, to the lack of a mechanism to ensure that sufficient referrals of eligible participants
are received from the local welfare agency. As of December 31, 1999, the Washington Alliance
expended $790,998 in WtW grant funds, which represents an average cost of $8,071 per participant
served.

According to the June 24, 1999, grant award modification, the Washington Alliance’s intake process is
governed by a Memorandum of Understanding (MOU) it was negotiating with the District of
Columbia’s Department of Human Services (DCDHS). The importance in executing this MOU is
significant because the DCDHS has a contractual relationship with outside organizations to provide
employment services to all nonexempt TANF recipients. The effect of this relationship is that DCDHS
contractors have almost an exclusive right of referral of all TANF recipients. This leaves the
Washington Alliance “out of the loop” if an effective arrangement is not made to receive referrals of
TANF recipients.

DCDHS has agreed to encourage its contractors to refer eligible TANF recipients to the Washington
Alliance to receive vocational education, on-the-job-training, career counseling, and job placement


U.S. Department of Labor - Office of Inspector General                                               Page 18
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


services. However, no formal MOU has been finalized with the DCDHS. The grantee’s inability to
reach a formal agreement with the DCDHS and/or to develop an effective outreach program that
identifies and recruits WtW eligible applicants will greatly diminish the grantee’s ability to meet the
performance schedule included in its grant agreement.


 Recommendation


If our overall recommendation to terminate the grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to require the
Washington Alliance to provide credible evidence to demonstrate how it will meet its scheduled
enrollment level of 515 participants as of March 31, 2000.


 Agency Response


The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.


 OIG Conclusion


This recommendation will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.


 7.   The Washington Alliance Does Not Have a Fidelity Bond
      for its WtW Competitive Grant


No fidelity bond has been purchased for the Washington Alliance WtW competitive grant to cover the
Government’s $5 million interest in the grant award.

The Washington Alliance is a limited partnership, with LIFECARE’s managing general partner acting as
the managing general partner for the Washington Alliance. LIFECARE is a commercial, private, for-
profit organization which is responsible for the administration and management of this $5 million WtW
grant. There is no fidelity bonding requirement under this grant.

The administrative structure of the Washington Alliance, as well as its limited history in administering


U.S. Department of Labor - Office of Inspector General                                             Page 19
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant


Federal grants, clearly demonstrates that it is in the Federal Government’s
best interest to require fidelity bonding coverage under this grant.

Title 29 CFR 95.21 (d) states that DOL may require adequate fidelity bond coverage where the
recipient lacks sufficient coverage to protect the Federal Government’s interest. The cost of bonding
pursuant to the terms of the contract is an allowable cost under 48 CFR 31.205-4 (b).

The result of our survey demonstrates that this is a high-risk grant because the Washington Alliance’s
organizational structure and program operations do not agree with what was represented in the grant
agreement, procurement actions were not done with free and open competition, enrollment levels are
low, and documentation is insufficient to support the reasonableness of grant costs. Therefore, it is
appropriate that adequate fidelity bond coverage be obtained to protect the Federal Government’s
interest.


 Recommendation


If our overall recommendation to terminate this grant is not implemented, we recommend
that the Assistant Secretary for Employment and Training direct the ETA Grant Officer to require the
Washington Alliance to purchase a fidelity bond in a predetermined amount to cover the Federal
Government’s interest in this WtW grant.


 Agency Response


The Assistant Secretary for Employment and Training’s response only addressed our recommendation
to terminate the grant.


 OIG Conclusion


This recommendation will be closed if the Assistant Secretary for Employment and Training decides to
terminate the grant.




U.S. Department of Labor - Office of Inspector General                                          Page 20
Postaward Survey of the Washington Alliance Welfare-to-Work Competitive Grant




                APPENDIX - AGENCY’S RESPONSE TO DRAFT REPORT




U.S. Department of Labor - Office of Inspector General                          Page 21
